              REVIEW OF THE
    ADMINISTRATIVE PROCEDURES OF THE
UNITED STATES ARCTIC RESEARCH COMMISSION
     REPORT NUMBER A050209/S/W/S05003
              September 7, 2005
                u.s. GENERAL SERVICESADMINISTRATION
                Office of Inspector General


Date:          September
                       7, 2005

Reply to       Audit Manager
Attn of:       WashingtonField Audit Office (JA-W)

Subject:       Reviewof the AdministrativeProcedures
                                                   of the United States
               Arctic ResearchCommission
               ReportNumberA050209/S/W    /S05003

To:            Dr. GarrettW. Brass
               ExecutiveDirector

This report presentsthe General ServicesAdministration (GSA), Office of Inspector General's(OIG)
review of the administrative practices and procedures of the United States Arctic Research
Commission (the Commission) for Fiscal Year (FY) 2004. The Review was perfonned at the
request of the Commission in accordance with the Memorandum of Understanding (MOU) and
Agreement betweenthe Commission and the GSA OIG.

Background

Public Law 98-373 -July 31, 1984, amendedas Public Law 101-609 -November 16, 1990, entitled
"Arctic Researchand Policy Act, of 1984as amended",was enactedto: (1) establishnational policy,
priorities, and goals, and to provide a Federal program plan for basic and applied scientific research
with respectto the Arctic, including natural resourcesand materials, physical, biological and health
sciences, and social and behavioral sciences; (2) establish an Arctic Research Commission to
promote arctic researchand to recommendArctic researchpolicy; (3) designatethe National Science
Foundation (NSF) as the lead agencyresponsible for implementing Arctic researchpolicy; and (4)
establish an Interagency Arctic Research Policy Committee to develop a national Arctic research
policy and a five year plan to implement that policy.

Section 106 of the Act gave the Commission authority to enter into agreementswith GSA for the
procurementof necessaryfmanciaI and administrative services for which payment shall be made by
reimbursement from the USARC funds. In accordance with a MOU between GSA and the
Commission, GSA provides fmancial support services to the Commission on a cost reimbursable
basis. This includes processing all obligations and payments that have been duly authorized by
officials of that agency,assisting in the preparationof external reports including reports required by
the Office of Managementand Budget and the Department of Treasury. Under this agreement,the
Commission is required to maintain such files/accounts and to transmit to GSA such information
and reports as may be necessaryto provide the requestedservices. There is one area of exception.
Citing authority derived under 31 USC Sec. 1535 (the Economy Act), in August 2003, the
Commission replaced GSA with the Department of Interior as the provider of payroll support
services. GSA continues to provide all other financial and administrative services.



                              7th & D Streets, SW, Washington,      DC   20407
                                                       ~
                              FederalRecyclingProgram...,   Printedon Recycled
                                                                             Paper
GSA/OIG/A050209/S/W/S05003




Objectives, Scope and Methodology

The objectives of this review were to (1) review and evaluate the Arctic Research Commission’s
compliance with Federal regulations and administrative policies and procedures, and (2)
determine the effectiveness of those policies and procedures. To accomplish these objectives, we
identified and evaluated the controls relating to the administrative practices followed by the
Commission. The administrative activities reviewed included: property, travel, procurement, payroll,
timekeeping, and personnel operations.

The review was performed at the Commission's office located at 4350 N. Fairfax Drive, Suite 510,
Arlington, Virginia. The review was conducted in accordance with generally accepted government
auditing standards and included such audit tests and procedures as considered necessary under the
circumstances to evaluate the Commission's system of internal controls.

Results Of Review

Except as noted below, the Commission’s policies and procedures relative to property, travel,
procurement, payroll, timekeeping and personnel operations are generally compliant with all
applicable Federal regulations as well as the Commission’s authorizing legislation. Our review
found one instance of non-compliance with Federal Acquisition Regulations (FAR).

       Procurement to Declassify Bathymetry Data

In one of the 20 procurement actions reviewed the commission was non-compliant with several
FAR provisions and deferred required contract documentation until after the services or products
were received and payment was due, instead of at the time the agreement was reached with the
vendor.

Based on a conversation with the Commission chairman, a consultant was hired to sanitize
classified underwater bathymetry data collected by the US Navy for use by the greater Arctic
research community. The consultant submitted an invoice dated February 23, 2004 for $25,000,
based on 250 hours of labor at $100 per hour. A written task order to retroactively authorize the
work already delivered was executed 11 days later on March 5, 2004. FAR 2.101 require supplies
or services above the micro-purchase threshold of $2,500 to be acquired by contract, in writing.
In this case, an agreement was reached without any documentation to define what the contractor
agreed to provide (i.e., what hourly rate to charge, the quantity of hours the task would take, or
when the data was due.) Additionally, the commission awarded the task order without full and
open competition being justified as required by FAR. While sole source procurements are not the
preferred method, the procurement regulations recognize that in some circumstances there is no
other choice. Accordingly the FAR does make provision for these kinds of procurements, and
FAR 6.302 identifies the circumstances where contracting without full and open competition is
appropriate. However, when procurements are awarded on this basis the contracting officer must
justify the exception in writing. We advise that in future procurements the Commission follow
applicable FAR procedures, and document all contracting decisions and actions taken at the time
they occur.

                                                 2

GSA/OIG/A050209/S/W/S05003





Internal Controls

We assessed the internal control policies and procedures relevant to the Commission’s
administration of property, travel, procurement, payroll, timekeeping, and personnel operations.
With the exception of the procurement issues discussed above, no material instances came to our
attention to indicate that the Commission operated other than in accordance with applicable
policies and procedures.

Thank you for the courtesies and cooperation extended to us during our review. If you have any
questions or need additional information, please contact me on 202-708-5340.



Keith Amacher
Audit Manager
Washington Field Audit Office (JA-W)




                                               3

GSA/OIG/A050209/S/W/S05003





                    REVIEW OF THE ADMINISTRATIVE PROCEDURES
                              OF THE UNITED STATES
                          ARCTIC RESEARCH COMMISSION
                         REPORT NUMBER A050209/S/W/S05003

                                   REPORT DISTRIBUTION

                                                              Copies

Executive Director, U.S. Arctic Research Commission             1

Assistant Inspector General for Auditing (JA, JAO, JAS)         3




                                                4
